VER

Supreme Court, U.S.
FILED

SEP 3 0 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 21-5646
v. Andrew Bruck, Acting Attorney General
of New Jersey, et al.
(Respondent)

Peter Klah
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
O

I am filing this waiver on behalf of all respondents.

X I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Office of the Mercer County Prosecutor

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
am not presently a member of the Bar of this Court. Should a response be requested, the
X Iresponse
will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, I First Street, NE, Washington, D.C. 20543).

*-7

Signature
Date:

September 28, 2021

(Type or print) Name

Laura Sunyak
0 Mr.

Firm

0 Ms.

0 Mrs.

0 Miss

Office of the Mercer County Prosecutor

Address

209 S. Broad Street, 3rd Floor P.O. Box 8068

City & State .

Trenton, NJ

Phone

609-989-6351

Zip 08650
Email

Isunyak@mercercounty.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
THIS
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF
.
REQUIRED
IS
LETTER
COVER
OR
SERVICE
OF
FORM. NO ADDITIONAL CERTIFICATE
cc:

